=>
I

C@OQCKLE

2311 Douglas Street . E-Mail Address:
Omaha, Nebraska 68102-1214 Le ga 1B ticfs contact@cocklelegalbriefs.com

1-800-225-6964 Web Site

(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No.
ESTATE OF DAVID MAURICE, JR.
AND STACEY MAURICE,
Petitioners,
v.
LIFE INSURANCE COMPANY
OF NORTH AMERICA,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court
Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the

footnotes, and this brief contains 8405 words, excluding the parts that are exempted by Supreme
Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 10th day of September, 2020.
Jam duly authorized under the laws of the State of Nebraska to administer oaths.

ae Loo Qudraw-h, hele

Affiant

    

 

Notary Public 39924
